APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order and Judgment of the United States
Court of Appeals for the Tenth Circuit
(February 5, 2021) ................................................. 1a
Memorandum Opinion and Order of the
United States District Court for the District
of New Mexico (November 19, 2019) ................. 13a
Opinion of the Court of Appeals of New Mexico
(April 28, 2014) .................................................... 46a
Specially Concurring Opinion of Justice
Bustamante .......................................................... 63a
CONSTITUTIONAL AND STATUTORY PROVISIONS
Relevant Constitutional and Statutory Provisions .... 67a

App.1a


ORDER AND JUDGMENT OF THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
(FEBRUARY 5, 2021)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
ADVANTAGEOUS COMMUNITY SERVICES, LLC;
ARMINDER KAUR; HARASPAL SINGH;
HARCHI SINGH,

Plaintiffs-Appellants,
v.
GARY KING; AMY LANDAU;
ELIZABETH STALEY; MARC WORKMAN;
CATHY STEVENSON; ORLANDO SANCHEZ;
WALTER RODAS,

Defendants-Appellees.
________________________
No. 19-2211
(D.C. No. 1:17-CV-00525-LF-KK) (D.N.M.)
Before: MATHESON, LUCERO, and
McHUGH, Circuit Judges.

 This order and judgment is not binding precedent, except under
the doctrines of law of the case, res judicata, and collateral estoppel.
It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App.2a
Advantageous Community Services, LLC
(“Advantageous”) had a contract with the New Mexico
Department of Health (“NMDH”) to provide home
health care to Medicaid recipients. The Office of
Attorney General of New Mexico (“OAG”) brought a
civil enforcement action against Advantageous
concerning its billing practices, but the action was
dismissed because an Assistant Attorney General used
two inaccurately reproduced documents at a deposition.
Advantageous, its owner, and the owner’s sons
(“Appellants”) sued seven current or former officials of
NMDH and OAG (“Appellees”) in federal district court
under 42 U.S.C. § 1983. The district court dismissed
some claims and granted summary judgment to the
Appellees on the remaining claims.
Exercising jurisdiction under 28 U.S.C. § 1291, we
affirm.
I.

Background
A. Parties

Appellant Advantageous was a Medicaid contractor
for NMDH. The individual Appellants are Dr. Arminder
Kaur, who owns Advantageous, and her sons Haraspal
and Harchi Singh, who work there and “informally
share” in Advantageous’s ownership. App., Vol. I at 2425.
The Appellees are seven current or former New
Mexico officers and employees sued in their individual
capacities. Four were associated with the New Mexico
Office of the Attorney General:

App.3a
1.

Gary King, former Attorney General;

2.

Elizabeth Staley, former Director of the
Medicaid Fraud and Elder Abuse Division,
which was charged with reviewing and prosecuting claims of Medicaid fraud;

3.

Amy Landau, former Assistant Attorney
General (“AAG”), who prosecuted the enforcement action against Advantageous; and

4.

Marc Workman, former investigator.

The three others held positions with NMDH:
5.

Cathy Stevenson, the former Director of
NMDH’s Developmental Disabilities Support
Division and current Deputy Director of
NMDH;

6.

Orlando Sanchez, a former employee; and

7.

Walter Rodas, another former employee.

B. Factual Background
We draw the following facts from the district court
record and the New Mexico Court of Appeals’ opinion
in State v. Advantageous Community Services, LLC,
329 P.3d 738, 739 (N.M. Ct. App. 2014), which affirmed
the state district court’s dismissal of the enforcement
action against Advantageous.1

1 The federal district court took judicial notice of this opinion
and accepted the truth of its factual recitations. Because no one
disputes that judicial notice was appropriate, we do so too.

App.4a
1. Advantageous’s Work as a Medicaid
Contractor
Advantageous contracted with NMDH to provide
home health care to Medicaid recipients and in turn
contracted with individual caregivers to provide care.
It billed the State of New Mexico’s (“State”) Medicaid
administrators to pay the caregivers.
2. Background Check Requirement and
Medicare Fraud Act
NMDH requires home health care providers like
Advantageous to submit a background check application to NMDH for each of their caregivers. After NMDH
completes a background check, it sends a “clearance
letter” to the provider stating whether the background
check uncovered any disqualifying convictions. NMDH
creates clearance letters using templates with blank
fields that are populated with information drawn from
a database.
3. Investigation of Advantageous and
Commencement of Enforcement Action
In January 2006, the State opened an investigation
into Advantageous’s billing practices. The investigation
revealed that six Advantageous caregivers were not
cleared through background checks before Advantageous started billing the State for their services.
In June 2007, OAG demanded that Advantageous
repay the State for the payments it had received for
services rendered by the six caregivers. Advantageous
did not respond. NMDH placed a moratorium on
Advantageous that prevented it from taking on new
Medicaid patients.

App.5a
In September 2009, the State—represented by
OAG—sued Advantageous in New Mexico state court
for (1) recovery of overpayments, (2) civil penalties,
and (3) breach of contract.
4. Deposition in the Civil Enforcement
Action
In the civil enforcement action, the State used
“the date on the [NMDH’s] clearance letter for each
of the six [Advantageous] caregivers . . . to support its
claims that caregivers were providing services that
were billed to Medicaid before” their background checks
had been completed. Advantageous Cmty. Servs.,
LLC, 329 P.3d at 740. Thus, “the clearance letter issued
for each caregiver [was] critical to the State’s theory
of liability.” Id.
The State deposed Dr. Kaur in March 2011. In
advance of the deposition, AAG Landau asked Mr.
Workman, an OAG investigator, to prepare information
packets for each of the six caregivers. For two of the
caregivers, Mr. Workman was unable to locate original
copies of the clearance letters that had been issued in
2006.
Mr. Workman called Mr. Rodas, an NMDH
employee, to ask if NMDH had copies of the two 2006
clearance letters. After Mr. Rodas informed Mr.
Workman that NMDH did not keep hard copies, Mr.
Workman asked him to “reprint” the two clearance
letters from its electronic database. Mr. Rodas warned
Mr. Workman it was impossible to reprint accurate
copies of the two letters because both the letter
template and certain information in the database
had changed in the five intervening years. Mr. Rodas
generated the two letters anyway and faxed them to

App.6a
Mr. Workman with a cover sheet explaining that the
letters were inaccurate reproductions.
Mr. Workman placed the two reproduced letters
in the packets he was preparing for AAG Landau,
but he left out Mr. Rodas’s cover sheet. Mr. Workman
did not inform AAG Landau that the reproductions
were not duplicates of the originals issued in 2006.
AAG Landau presented one or both of the letters to
Dr. Kaur at her deposition.
5. Dismissal of Enforcement Action and
Appeal
After the March 2011 deposition, Advantageous
moved for sanctions against the State for using the
two letters at Dr. Kaur’s deposition. It also moved for
summary judgment on the merits. The state district
court dismissed the enforcement action as a litigation
sanction. It also granted summary judgment on the
merits.
The State appealed. In 2014, the New Mexico
Court of Appeals affirmed the dismissal of the enforcement action as a litigation sanction. It did not review
whether summary judgment was warranted.
C. Procedural Background
1. Complaint
The Appellants brought three damages claims
under 42 U.S.C. § 1983 in federal court against all
Appellees:
1.

Malicious prosecution and malicious abuse
of process in violation of the Fourth and
Fourteenth Amendments;

App.7a
2.

Fabrication of evidence in violation of the
Fourth and Fourteenth Amendments; and

3.

Arbitrary and capricious conduct in violation
of the Fourteenth Amendment.
2. Motion to Dismiss Order

The Appellees filed a motion to dismiss. In its
order, the district court dismissed the individual
Appellants’ malicious prosecution and fabrication of
evidence claims with prejudice for failure to state a
claim because they were not parties to the state
enforcement action. The district court also dismissed
with prejudice all of the Appellants’ Fourteenth Amendment claims.
On the Fourth Amendment claims, the district
court said Advantageous had alleged that the State had
seized its property by (1) terminating and refusing to
renew its Medicaid contract, and (2) withholding
Medicaid reimbursements. The court held Advantageous (1) did not have a protected property interest
in its Medicaid contract but (2) had sufficiently alleged
that the withholding of Medicaid reimbursements
was a Fourth Amendment seizure. It therefore declined
to dismiss Advantageous’s Fourth Amendment claims
for malicious prosecution and fabrication of evidence.2
3. Motion for Summary Judgment Order
The Appellees moved for summary judgment on
Advantageous’s remaining Fourth Amendment claims.
The district court granted the motion. It held no clearly
2 The district court said these claims “merged” into a single claim
because they were “indistinguishable.” App., Vol. I at 106-07.

App.8a
established law showed that the State’s withholding
of Medicaid reimbursements from Advantageous was
a Fourth Amendment property seizure. Appellees were
therefore entitled to qualified immunity on Advantageous’s Fourth Amendment claims.
The district court also rejected Advantageous’s
request under Federal Rule of Civil Procedure 56(d)
to conduct additional discovery to oppose summary
judgment.
****
The district court, having disposed of all claims,
entered final judgment. The Appellants timely appealed.
II. Discussion
On appeal, the Appellants argue the district court
erred by (A) dismissing the individual Appellants’
Fourth Amendment claims; (B) granting summary
judgment against Advantageous’s Fourth Amendment
claims; and (C) denying Advantageous’s request to
conduct additional discovery pursuant to Federal Rule
of Civil Procedure 56(d).3 The following discussion
concludes that:

3 The Appellants either do not appeal or do not present adequate
briefing on the district court’s dismissal of their Fourteenth
Amendment claims. Aplt. Br. at 16, 32, 35 (making three “points” on
appeal); id. at 16 (summary of argument). Fourteenth Amendment
references appear on pages 38 to 46 of their opening brief. But
the Appellants neither explain why the district court erred nor
develop an argument why we should reverse. If the Appellants
intended to appeal the dismissal of their Fourteenth Amendment
claims, they waived the issue by inadequately briefing it. See
Burke v. Regalado, 935 F.3d 960, 1014 (10th Cir. 2014) (“[A]n
appellant may waive an issue by inadequately briefing it.”).

App.9a
A.

The individual Appellants did not state
Fourth Amendment malicious prosecution
and fabrication of evidence claims because
they were not parties to the state enforcement
action.

B.

Advantageous’s challenge to the summary
judgment ruling fails because it has not
shown the State’s withholding of Medicaid
reimbursements was a Fourth Amendment
seizure under clearly established law.

C.

The district court’s denial of the Rule 56(d)
motion should be upheld because further
discovery would have been futile.

A. Individual Appellants’ Fourth Amendment
Claims
The district court dismissed the individual
Appellants’ Fourth Amendment malicious prosecution
and fabrication of evidence claims with prejudice. It
held the individual Appellants had failed to state a
claim because they were not parties to the state
enforcement action against Advantageous. We affirm.
“We review de novo a district court’s Rule 12(b)(6)
dismissal of a complaint for failure to state a claim.”
Doe v. Woodard, 912 F.3d 1278, 1299 (10th Cir. 2019).
To survive a motion to dismiss, a plaintiff must plead
sufficient factual allegations “to state a claim to
relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). To state a malicious
We note that almost the entire Argument section of the Appellants’
opening brief is copy-pasted—with minor changes—from their
district court briefs. Compare Aplt. Br. at 20-46, with App., Vol.
I at 51-55, 61-64, 68-70, 196-97, 200-08.

App.10a
prosecution claim, plaintiffs must show they were
prosecuted. See Mglej v. Gardner, 974 F.3d 1151, 1170
(10th Cir. 2020). Likewise, to state a fabrication of
evidence claim, plaintiffs must show that fabricated
evidence was used against them in a proceeding. See
Warnick v. Cooley, 859 F.3d 746, 753 (10th Cir. 2018);
see also McDonough v. Smith, 139 S. Ct. 2149, 2156
(2019) (“the most analogous common-law tort” to
fabrication of evidence is malicious prosecution).
The individual Appellants were not parties to the
state enforcement action. They therefore did not state
malicious prosecution or fabrication of evidence claims.
The individual Appellants provide no valid argument
to the contrary. Aplt. Br. at 35-46. We affirm the district court’s dismissal of these claims.
B. Advantageous’s Fourth Amendment Claims
The district court granted summary judgment
against Advantageous’s Fourth Amendment claims
on numerous grounds, including the Appellees’ qualified
immunity. We affirm because Advantageous fails to
contest on appeal the district court’s determination
that no clearly established law showed there was a
Fourth Amendment seizure.
When a defendant in a § 1983 action moves for
summary judgment based on qualified immunity, the
plaintiff must show (1) the defendant violated a federal
constitutional or statutory right, which (2) was clearly
established at the time of the defendant’s conduct.
See Pearson v. Callahan, 555 U.S. 223, 232 (2009); Est.
of Booker v. Gomez, 745 F.3d 405, 411 (10th Cir. 2014).
We have discretion to address the second element
first and decline to address the first. See Pearson,
555 U.S. at 236-37.

App.11a
In its summary judgment order, the district
court held that the Appellees were entitled to qualified
immunity because no clearly established law showed
that the State’s alleged withholding of Medicaid
reimbursements from Advantageous was a property
seizure under the Fourth Amendment. App., Vol. II
at 372-74. The Appellants fail to dispute this holding
in their opening brief and therefore waived the issue.
See Burke v. Regalado, 935 F.3d 960, 1018 n.44 (10th
Cir. 2019). We affirm the district court’s grant of
summary judgment against Advantageous’s Fourth
Amendment claims.4
C. Advantageous’s Rule 56(d) Request
The district court denied Advantageous’s request
under Federal Rule of Civil Procedure 56(d) for further
discovery to oppose summary judgment. We review
that decision for an abuse of discretion. Gutierrez v.
Cobos, 841 F.3d 895, 908 (10th Cir. 2016). The district court mistakenly thought Advantageous had
failed to submit a Rule 56(d) affidavit. Although the
court erred by not considering Advantageous’s Rule
4 We could also affirm on four other grounds. First, no clearly
established law recognizes a Fourth Amendment malicious
prosecution or fabrication of evidence claim based on a property
seizure, as opposed to the seizure of a person. See Mglej, 974
F.3d at 1170 (for a malicious prosecution claim “a plaintiff must
show . . . the defendant caused the plaintiff’s continued confinement or prosecution” (quotations omitted)). Second, no clearly
established law recognizes a malicious prosecution or fabrication
of evidence claim relating to a civil enforcement action. Third,
no evidence showed the state enforcement action was initiated
and continued without probable cause. Fourth, no evidence showed
a relationship between the State’s withholding of Medicaid
reimbursements and the state enforcement action. See App., Vol.
II at 371-72.

App.12a
56(d) affidavit, 5 it did not abuse its discretion in
denying Advantageous’s Rule 56(d) request because
additional discovery would have been futile. No amount
of discovery would have overcome the lack of clearly
established law on Advantageous’s seizure claims.
We therefore affirm the district court’s denial of
Advantageous’s Rule 56(d) request.
III. Conclusion
We affirm the district court’s judgment. Entered
for the Court.
Scott M. Matheson, Jr.
Circuit Judge

5 The district court probably overlooked Advantageous’s Rule 56(d)
affidavit because Advantageous first invoked Rule 56(d) in its
April 2019 opposition to the Appellees’ summary judgment motion,
and later filed its Rule 56(d) affidavit in a June 2019 docket
entry—long after briefing had concluded on the summary judgment
motion.

App.13a
MEMORANDUM OPINION AND ORDER
OF THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
(NOVEMBER 19, 2019)
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
________________________
ADVANTAGEOUS COMMUNITY SERVICES, LLC,
ARMINDER KAUR, HARASPAL SINGH,
and HARCHI SINGH,

Plaintiffs,
v.
GARY KING, AMY LANDAU, ELIZABETH
STALEY, MARC WORKMAN, CATHY
STEVENSON, ORLANDO SANCHEZ,
and WALTER RODAS,

Defendants.
________________________
1:17-cv-00525-LF-KK
Before: Laura FASHING,
United States Magistrate Judge.
THIS MATTER comes before the Court on
defendants Gary King, Amy Landau, Elizabeth Staley,
Mark Workman, Cathy Stevenson, Orlando Sanchez,
and Walter Rodas’ (collectively “State Defendants”)
Motion for Summary Judgment (Doc. 95), filed April
12, 2019. Plaintiffs filed their Response to Defendants’

App.14a
Motion (Doc. 98) on April 29, 2019. State Defendants
filed their Reply in Support of Their Motion for
Summary Judgment (Doc. 102) on May 20, 2019. The
parties consented to my entering final judgment in
this case. Docs. 6-14. Having read the submissions of
the parties and being fully advised, and for the
following reasons, the Court GRANTS the State
Defendants’ Motion for Summary Judgment.
I.

Statement of Facts1

The New Mexico Human Services Department
(“HSD”) is responsible for administering Medicaid and
maintaining the managed care system for Medicaid
recipients. UMF 8. The State Defendants assert,
without any evidentiary support,2 that the Medicaid
Assistance Division (“MAD”) is a division within HSD
that is responsible for executing Provider Participation Agreements to ensure that Medicaid providers
are qualified under the Medicaid Act. UMF 9. HSD
works under an interagency agreement with the New
Mexico Department of Health (DOH) to administer a
portion of the Medicaid program. UMF 10. HSD had
primary responsibility for accepting claims for services
1 For facts that Advantageous does not contest for the purposes
of this motion, the Court cites to the Undisputed Material Fact
(“UMF”) in the State Defendants’ Motion for Summary Judgment. Doc. 95 at 2-6. For facts that Advantageous disputes or
partially disputes, or which are not cited in the materials, the
Court cites to the underlying exhibits and other materials in
the record or of which the Court may take judicial notice. See
Fed. R. Civ. P. 56(c)(3) (“The court need consider only the cited
materials, but it may consider other materials in the record.”).
2 Although the State Defendants do not provide any evidentiary
support for this fact, it is immaterial to the Court’s decision.

App.15a
rendered, reviewing claims to ensure accuracy, then
paying the claims. Id.
DOH provides program management and technical
assistance to Medicaid programs, including enrolling
providers and providing training to providers on how
to provide services, as well as advising them of the
rules and requirements of the Medicaid system. UMF
11. Plaintiff Advantageous Community Services, LLC,
(“Advantageous”) is a New Mexico business that provided home-based care to Medicaid recipients pursuant
to the Developmental Disabilities Waiver Program.
Doc. 1-1 ¶ 16; Doc. 77 ¶ 16. Defendant Cathy Stevenson
was the Acting Director of the Developmental Disabilities Supports Division (“DDSD”). UMF 12. DDSD
reported to DOH. Id. The Division of Health Improvement—another division under DOH—was responsible
for the criminal history screening of Medicaid providers’
employees. UMF 13. DDSD was not responsible for
conducting this screening. Id.
The Medicaid Fraud Division is a division within
the New Mexico Attorney General’s Office charged
with reviewing and prosecuting referrals of potential
claims of Medicaid fraud. UMF 14. During the relevant
time period, defendant Gary King was the New
Mexico Attorney General, and defendant Amy Landau
was an attorney in his office. Doc. 1-1 ¶¶ 6, 7; Doc. 77
¶¶ 6, 7. Defendant Elizabeth Staley also was an
attorney at the Attorney General’s Office and was
Director of the Medicaid Fraud and Elder Abuse Division there. Doc. 1-1 ¶ 8; Doc. 77 ¶ 8. Defendant Marc
Workman was an investigator for the Attorney
General’s Office. Doc. 1-1 ¶ 9; Doc. 77 ¶ 9. Defendants
Orlando Sanchez and Walter Rodas both were

App.16a
employees of DOH. Doc. 1-1 ¶¶ 11, 12; Doc. 77 ¶¶ 11,
12.
On January 10, 2006, after completing a review
of suspected fraudulent behavior, MAD referred “the
issue” to the Medicaid Fraud Division, which opened
an investigation into Advantageous’ billing practices.
UMF 1. On June 4, 2007, after approximately 15
months of investigation, the Medicaid Fraud Unit
(“MFU”) of the New Mexico Attorney General’s Office
demanded repayment to the State of payments made
to Advantageous for services provided by six Advantageous employees whom the MFU believed did not
have required background clearances. UMF 3; see
also Doc. 95-1 (Hughes depo at 45:2-51:7; explaining
the MFU’s claim for repayment); Doc. 95-2 (attachment showing MFU’s claim). Advantageous did not
respond to MFU’s demand. UMF 3. DOH placed a
moratorium on business with Advantageous. UMF 4;
Doc. 98 at 2 (“Advantageous does not dispute that
the Department of Health placed a moratorium on
business with Advantageous,” but it does dispute the
reason for doing so.).
More than three years after MAD made the
referral to the Attorney General’s Medicaid Fraud
Division, on September 28, 2009, the State of New
Mexico filed suit against Advantageous for Recovery
of Medicaid Overpayments, Civil Penalties, and Breach
of Contract (hereafter sometimes referred to as the
“underlying complaint”). UMF 6. The underlying
complaint alleged that Advantageous “submitted false,
fraudulent, excessive, or incomplete billings to the
State’s Medicaid program” by submitting claims for
services provided by individuals for whom Advantageous had not obtained criminal history screenings.

App.17a
Doc. 95-2 at 2, ¶ 8. The underlying complaint alleged
that billing for services provided by such individuals
entitled the State to recover all amounts paid for
those services as well as civil penalties. See id. at 23, ¶¶ 10-12. The underlying complaint also alleged
that billing for services performed by individuals who
“had not undergone a background check as required
by state law” was a breach of Advantageous’ contract
with the State, and the State sought damages for
that breach. Id. at 3-4, ¶¶ 13-15.
On September 16, 2011, nearly two years after
the State filed its lawsuit against Advantageous, Judge
Shannon Bacon dismissed a similar lawsuit, State of
New Mexico v. Behavioral Home Care, Inc., D-202CV-201008273, for failure to state a claim. See UMF
7 (mistakenly stating that the case was dismissed on
September 30, 2011); see also Doc. 98-6 at 3 (docket
entry showing dismissal on September 16, 2011). The
New Mexico Court of Appeals affirmed the dismissal
on June 9, 2014 in a published opinion. UMF 7; see
also State ex rel. King v. Behavioral Home Care, Inc.,
2015-NMCA-035, 346 P.3d 377 (N.M. Ct. App. Jun. 9,
2014), cert. granted, 2014-NMCERT-008, 334 P.3d
425 (Aug. 15, 2014), cert. dismissed, 2015-NMCERT004, 348 P.3d 695 (Apr. 3, 2015).
Meanwhile, on October 28, 2011, about six weeks
after Judge Bacon dismissed the suit against
Behavioral Home Care, Judge Valerie Huling dismissed
the state’s case against Advantageous as a sanction
for the Attorney General’s Office’s use of “document
know to be false” in conjunction with a deposition.

App.18a
Doc. 98-1 (Judge Huling’s opinion).3 Judge Huling
stated in her order that “[d]ismissal of the Complaint
is warranted as a sanction considering the egregious
nature of the actions of the State’s investigator.”
Doc. 98-1 at 5. Judge Huling also stated, “Summary
Judgment is granted,” but she did not analyze the
merits of the State’s case under the summary judgment standard. See id.; see also Romero v. Philip
Morris Inc., 2010-NMSC-035, ¶¶ 7-11, 148 N.M. 713,
720-22, 242 P.3d 280, 287-89 (reviewing stringent
summary judgment standard in New Mexico). On April
28, 2014, the New Mexico Court of Appeals affirmed
Judge Huling’s imposition of the sanction of dismissal
with prejudice for the State’s severe misconduct in
using false documents to prosecute its case. State ex
rel. King v. Advantageous Community Services, LLC,
2014-NMCA-076, 329 P.3d 738 (2014). The Court of
Appeals did not address the State’s argument that
Judge Huling erred in granting summary judgment.
Id., 2014-NMCA-076, ¶ 11, 329 P.3d at 741.
II. Discussion
A. Legal Standard for Summary Judgment
Summary judgment will be granted “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). A
genuine dispute exists if “the evidence is such that a
reasonable jury could return a verdict for the nonmoving party” on the issue. Anderson v. Liberty Lobby,
3 The copy of the opinion attached to Advantageous’ response is
unsigned. See Doc. 98-1. A signed copy of the opinion is attached
to this order. See Attachment 1.

App.19a

Inc., 477 U.S. 242, 248 (1986). “Only disputes over facts
that might affect the outcome of the suit under the
governing law will properly preclude the entry of
summary judgment.” Id.
The movant bears the initial burden of establishing
that there is no genuine issue as to any material fact
and that the movant is entitled to judgment as a
matter of law. Celotex Corp. v. Catrett, 477 U.S. 317,
323-24 (1986). “[T]he movant need not negate the
non-movant’s claim, but need only point to an absence
of evidence to support the non-movant’s claim.”
Kannady v. City of Kiowa, 590 F.3d 1161, 1169 (10th
Cir. 2010) (quoting Sigmon v. CommunityCare HMO,
Inc., 234 F.3d 1121, 1125 (10th Cir. 2000)). If this
burden is met, the non-movant must come forward with
specific facts, supported by admissible evidence, which
demonstrate the presence of a genuine issue for trial.
Celotex, 477 U.S. at 324. The non-moving party cannot
rely upon conclusory allegations or contentions of
counsel to defeat summary judgment. See Pueblo
Neighborhood Health Ctrs., Inc. v. Losavio, 847 F.2d
642, 649 (10th Cir. 1988). Rather, the non-movant has
a responsibility to “go beyond the pleadings and
designate specific facts so as to make a showing
sufficient to establish the existence of an element
essential to [his] case in order to survive summary
judgment.” Johnson v . Mullin , 422 F.3d 1184, 1187
(10th Cir. 2005) (alteration in original) (internal quotation marks omitted).
At the summary judgment stage, the Court must
view the facts and draw all reasonable inferences in
the light most favorable to the non-movant. Scott v.
Harris, 550 U.S. 372, 378 (2007). The Court’s function
“is not . . . to weigh the evidence and determine the

App.20a
truth of the matter but to determine whether there is
a genuine issue for trial.” Anderson, 477 U.S. at 249.
There is no issue for trial “unless there is sufficient
evidence favoring the nonmoving party for a jury to
return a verdict for that party.” Id. Summary judgment
may be granted where “the evidence is merely colorable,
or is not significantly probative.” Id. at 249-50 (internal
citations omitted).
B. Section 1983 Claims and Qualified Immunity
Generally
Section 1983 states in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of
any State . . . subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof
to the deprivation of any rights, privileges,
or immunities secured by the Constitution
and laws, shall be liable to the party injured
in an action at law, suit in equity, or other
proper proceeding for redress.
42 U.S.C. § 1983. To establish a claim under § 1983,
a plaintiff must allege that a defendant acted under
color of state law to deprive the plaintiff of a right,
privilege, or immunity secured by the Constitution or
the laws of the United States. West v. Atkins, 487
U.S. 42, 48 (1988). The plaintiff also must identify an
“affirmative link” between the alleged constitutional
violation and each individual defendant. Gallagher v.
Shelton, 587 F.3d 1063, 1069 (10th Cir. 2009).
Qualified immunity shields government officials
performing discretionary functions from liability for

App.21a
civil damages unless their conduct violates clearly
established statutory or constitutional rights of which
a reasonable person would be aware. Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982). Under the Tenth
Circuit’s two-part test for evaluating qualified immunity, the plaintiff must show (1) that the defendant’s
conduct violated a constitutional or statutory right,
and (2) that the law governing the conduct was
clearly established when the alleged violation occurred.
Baptiste v. J.C. Penney Co., 147 F.3d 1252, 1255 (10th
Cir. 1998); accord Tonkouich v. Kan. Bd. of Regents,
159 F.3d 504, 516 (10th Cir. 1998). For a right to be
clearly established, “[t]he contours of the right must
be sufficiently clear that a reasonable official would
understand that what he [or she] is doing violates
that right.” Anderson v. Creighton, 483 U.S. 635, 640
(1987). Unless both prongs are satisfied, the defendant
will not be required to “engage in expensive and time
consuming preparation to defend the suit on its
merits.” Siegert v. Gilley, 500 U.S. 226, 232 (1991).
The Court is not required to address the two
prongs of the test in order. Pearson v. Callahan, 555
U.S. 223, 236 (2009). The Supreme Court’s decision
in Pearson permits courts to grant qualified immunity
without first deciding whether a constitutional violation
occurred so long as the right claimed to be violated
was not clearly established. Id. The right that is alleged
to have been violated must be “clearly established”
not just as a general proposition (for example, in the
way the right to free speech is clearly established),
but “in a more particularized . . . sense: The contours
of the right must be sufficiently clear that a reasonable
official would understand that what he [or she] is
doing violates that right.” Anderson, 483 U.S. at 640.

App.22a
Stating the right too broadly would destroy the
balance that the Supreme Court has sought to establish
“between the interests in vindication of citizens’ constitutional rights and . . . public officials’ effective performance of their duties by making it impossible for
officials reasonably to anticipate when their conduct
may give rise to liability for damages.” Id. at 639
(quotation and citation omitted).
“Ordinarily, in order for the law to be clearly
established, there must be a Supreme Court or Tenth
Circuit decision on point, or the clearly established
weight of authority from other courts must have found
the law to be as the plaintiff maintains.” Fogarty v.
Gallegos, 523 F.3d 1147, 1161 (10th Cir. 2008) (internal
quotations omitted). “The plaintiff is not required to
show, however, that the very act in question previously was held unlawful . . . to establish an absence
of qualified immunity.” Weigel v. Broad, 544 F.3d
1143, 1153 (10th Cir. 2008) (internal quotations omitted).
The degree of specificity required depends on the
egregiousness of the challenged conduct; “[t]he more
obviously egregious the conduct in light of prevailing
constitutional principles, the less specificity is required
from prior case law to clearly establish the violation.” Pierce v. Gilchrist, 359 F.3d 1279, 1298 (10th
Cir. 2004). “Qualified immunity gives government
officials breathing room to make reasonable but mistaken judgments about open legal questions.” Ashcroft
v. al-Kidd, 563 U.S. 731, 743 (2011). Qualified immunity
therefore protects “all but the plainly incompetent or
those who knowingly violate the law.” Malley v. Briggs,
475 U.S. 335, 341 (1986).

App.23a
C. The State Defendants’ Motion for Summary
Judgment
The only remaining claim in this case—Count I
of the complaint, brought under 42 U.S.C. § 1983—
alleges that the State Defendants violated Advantageous’ Fourth Amendment rights by maliciously
prosecuting it and misusing judicial proceedings.
Doc. 1-1 ¶¶ 46-60. This claim is based on Advantageous’
allegation that the State Defendants4 lacked probable
cause to initiate and continue to pursue the State’s
lawsuit against it, and that the State Defendants
fabricated evidence to support their prosecution. See
id. Count I further alleges that the State Defendants
used extra-judicial forfeiture proceedings against
Advantageous to withhold and recoup funds owed to
Advantageous for Medicaid services it had provided.
Id. ¶ 59.
The State Defendants argue that Advantageous’
malicious prosecution claim must fail for a variety of
reasons. They argue that no defendant violated a
clearly established right and that all the defendants’
actions were objectively reasonable; therefore all the
State Defendants are entitled to qualified immunity.
Doc. 95 at 6-13. The State Defendants also argue
that the State’s underlying lawsuit against Advantageous was not dismissed on the merits, but instead
was dismissed as a sanction for using false documents; therefore, Advantageous cannot prove that
the action terminated in its favor. See id. at 10-12.
The State Defendants further argue that the fabrica4 The parties don’t differentiate among the different defendants
in arguing this motion, and the Court agrees that the analysis
is the same for all the State Defendants.

App.24a
tion of evidence neither caused harm to Advantageous,
nor did it result in the seizure of any of Advantageous’
funds. See id. at 12-13.
In response, Advantageous correctly states that
the Court already found that it had adequately stated
a claim for malicious prosecution based on its allegation that the State Defendants “fabricated evidence,
prosecuted Advantageous based on the fabricated
evidence and without probable cause, and that the
prosecution resulted in a seizure of money belonging
to Advantageous.” Doc. 98 at 8. At the summary judgment stage, however, Advantageous must come forward with sufficient evidence to support its claims.
Johnson, 422 F.3d at 1187 (non-movant has a responsibility to “go beyond the pleadings and designate
specific facts so as to make a showing sufficient to
establish the existence of an element essential to [its]
case in order to survive summary judgment”). Advantageous argues that the State Defendants are not
entitled to qualified immunity because the State
Defendants initiated the underlying lawsuit without
probable cause and based on fabricated evidence, and
that the State Defendants seized funds belonging to
Advantageous based on the meritless lawsuit. See
Doc. 98 at 8-15. Advantageous further argues that
the rights the State Defendants violated were clearly
established. Id. at 15-18. Lastly, Advantageous argues
that the State Defendants’ motion is premature because
it needs additional time to conduct additional discovery. Id. at 18-20. For the following reasons, the
Court will grant the State Defendants’ motion.

App.25a
1. Qualified Immunity
To support its claim for malicious prosecution
under § 1983, Advantageous must present sufficient
evidence to support the following elements: (1) the
State Defendants caused Advantageous’ continued
prosecution5; (2) the original action terminated in
favor of Advantageous; (3) no probable cause supported
the original or continued prosecution of Advantageous;
(4) the State Defendants acted with malice; and (5)
Advantageous sustained damages. See Sanchez v.
Hartley, 810 F.3d 750, 754 n.1 (10th Cir. 2016) (citing
Wilkins v. DeReyes, 528 F.3d 790, 799 (10th Cir. 2008)).
Advantageous also must show, of course, that it
suffered a constitutional violation. See Pierce, 359 F.3d
at 1289 (“Although the common law tort [of malicious
prosecution] serves as an important guidepost for
defining the constitutional cause of action, the ultimate
question is always whether the plaintiff has [suffered]
a constitutional violation.”). Advantageous’ theory in
this case has always been that the State Defendants
unreasonably seized property belonging to Advantageous in violation of the Fourth Amendment. See
Doc. 98 at 8 (“Defendants are not entitled to qualified
immunity because they violated a clearly established
right when they prosecuted Advantageous based on
fabricated evidence and that prosecution led to a
wrongful seizure of Advantageous’ property.”).
5 As was made clear in my prior order denying the State
Defendants’ motion to dismiss, Advantageous is not proceeding
on a theory that it was physically seized in violation of the
Fourth Amendment. See Doc. 142 at 11-13. The Court therefore
has eliminated references to “confinement” and “arrest” from
the elements of a malicious prosecution claim as they are not
pertinent to this case.

App.26a
The State Defendants’ first argument that they are
entitled to qualified immunity is their claim that
“unless the plaintiff is ‘arrested, incarcerated, or
otherwise placed under the direct physical control of
the state,’ there cannot be a malicious prosecution
claim under the Fourth Amendment.” Doc. 95 at 8.
The Court already has rejected this argument in its
order denying the State Defendants’ motion to dismiss.
See Doc. 142 at 11-13. Advantageous’ claim is based
on a seizure of property—not the seizure of a person—
which the Supreme Court has held can support a
Fourth Amendment malicious prosecution claim under
§ 1983. See Soldal v. Cook County, Ill., 506 U.S. 56, 61
(1992).
The State Defendants’ second argument for
qualified immunity has merit. They argue that when
the Attorney General’s office filed its lawsuit against
Advantageous in 2009 for Medicaid fraud, they did
not know that the State’s claim was invalid and not
legally supportable. See Doc. 95 at 8-9; see also Doc.
95-2 (underlying complaint against Advantageous filed
on September 28, 2009). In other words, on September
28, 2009, the day the State filed its lawsuit against
Advantageous, the State Defendants reasonably
believed they had “probable cause” to file the lawsuit
because the state of the law in New Mexico at that
time did not clearly establish that the case was without merit. Indeed, the State Defendants had no reason
to know that their lawsuit was legally unsupportable
until the New Mexico Court of Appeals affirmed
Judge Bacon’s decision on June 9, 2014, which was
six weeks after the New Mexico Court of Appeals
affirmed Judge Huling’s dismissal of the lawsuit
against Advantageous. Compare State ex rel. King v.

App.27a

Behavioral Home Care, Inc., 2015-NMCA-035, 346
P.3d 377 (Jun. 9, 2014) with State ex rel. King v.
Advantageous Community Services, LLC, 2014-NMCA076, 329 P.3d 738 (Apr. 28, 2014). Thus, because the
lack of probable cause for the State’s lawsuit was not
clearly established until after the lawsuit against
Advantageous was dismissed, the State Defendants
are entitled to qualified immunity for initiating and
continuing the lawsuit.
In Behavioral Home Care, Inc., the court examined
whether Behavioral Home Care’s (“BHC”) billing for
services by certain caregivers for whom BHC had not
fully complied with the Caregivers Criminal History
Screening Act (“CCHSA”), N.M. STAT. ANN. 1978,
§§ 19-17-2 to 29-17-5 (1998, as amended through
2005), constituted false, fraudulent, or excess payments
under the Medicaid Fraud Act. Behavioral Home
Care, Inc., 2015-NMCA-035, ¶¶ 1-2, 346 P.3d at 380.
According to the complaint against BHC, and similar
to the allegations against Advantageous, BHC electronically submitted over 1800 billing claims for services
provided by certain caregivers whose criminal history
screening applications had not been submitted as
required by the CCHSA. Id. ¶ 8, 346 P.3d at 381. The
State asserted that BHC’s claims for payment for
these unscreened caregivers constituted falsification of
documents or Medicaid fraud under the Medicaid
Fraud Act (MFA). Id. ¶ 9, 346 P.3d at 382. The State
also asserted that submitting these claims constituted
a breach of BHC’s contract with the State. See id.
The New Mexico Court of Appeals described the legal
issue raised by the State’s allegations as “whether
BHC’s failure as a Medicaid provider to comply with
certain DDHSA screening application requirements

App.28a
constitutes billing and payment fraud under the MFA
and exposes BHC to liability under the MFA.” Id.
¶ 13, 346 P.3d at 383. The court characterized this
issue “as a matter of first impression in New Mexico.”
Id.
The New Mexico Court of Appeals held that BHC’s
“failure to comply with the CCHSA regulations does
not support MFA liability,” and it affirmed Judge
Bacon’s dismissal of the State’s lawsuit. Id. ¶ 3, 346
P.3d at 380. In doing so, the court compared the
State’s claims to claims of Medicare fraud brought
under the False Claims Act (“FCA”), which distinguishes between “‘conditions of participation’ in the
Medicare program (which do not support an FCA
claim)” and “‘conditions of payment’ from Medicare
funds (which do support FCA claims).” Id. ¶ 20, 346
P.3d at 384-85. After analyzing the MFA statutory
scheme and how it treats violations of the CCHSA, the
court held that BHC’s practice of failing to comply
with the CCHSA’s screening procedures was not in
violation of the conditions for payment from Medicaid
funds and therefore did not support a claim of
Medicaid fraud. Id. ¶ 30, 346 P.3d at 388. The court also
held that BHC’s conduct did not constitute a breach
of its contract with the state. Id. ¶ 34, 346 P.3d at
389.
As noted above, the New Mexico Court of Appeals
itself identified the State’s theory of liability “as a
matter of first impression in New Mexico” on June 9,
2014, and also noted that the issue was “novel.” Id.
¶¶ 13, 16, 346 P.3d at 383, 384. Thus, there is no
question that the law was not clearly established on
September 28, 2009, the day the State filed its
lawsuit against Advantageous, or even on April 28,

App.29a
2014, when the New Mexico Court of Appeals affirmed
the dismissal of the State’s suit against Advantageous
as a sanction for creating false documents. Although
Judge Bacon dismissed the State’s case against BHC
for failure to state a claim about six weeks before
Judge Huling dismissed the State’s case against
Advantageous, Judge Bacon’s decision was not binding
on Judge Huling. State ex rel. Children, Youth and
Families Dept. v. Djamila B., 2014-NMCA-045, ¶ 14,
322 P.3d 444, 448 (“One district court judge cannot
set aside the order of another district court judge.”)
(citing N.M. Const. art. VI, § 13). Because the law
was unsettled until the New Mexico Court of Appeals
issued its decision in Behavioral Home Care in June
2014, the State Defendants had no reason to know
that their case against Advantageous was legally
unsound not only when they filed it, but also when
its dismissal was affirmed by the New Mexico Court of
Appeals. The State Defendants are entitled to qualified
immunity for filing the State’s case against Advantageous for Medicaid fraud, and for continuing to
prosecute the case until its dismissal was affirmed by
the New Mexico Court of Appeals in April 2014.
2. The Fabricated Evidence
Advantageous argues that the State Defendants
“are not entitled to qualified immunity because they
violated a clearly established right when they prosecuted Advantageous based on fabricated evidence
and that prosecution led to a wrongful seizure of
Advantageous’ property.” Doc. 98 at 8. Advantageous
further argues that “liability attaches even where
the lack of probable cause was not known at the outset of litigation.” Id. at 9 (citing Pierce v. Gilchrist,
359 F.3d 1279, 1291-92, 1297 (10th Cir. 2004)). The

App.30a
undisputed evidence, however, does not support Advantageous’ claim.
To support its claim that the State Defendants
fabricated evidence, Advantageous relies on the findings
made by Judge Huling when she dismissed the State’s
case against Advantageous as a sanction for using a
false document in a deposition taken during the
course of the underlying litigation as well as the
affirmance of that dismissal by the New Mexico Court
of Appeals. See Doc. 98 at 9-12. But those court
rulings establish that the State Defendants did not
create the false document until well after the State
initiated its case against Advantageous, and that
relatively soon after the false document was created
and discovered, Judge Huling dismissed the lawsuit.
Furthermore, there is no evidence that the creation
of the false document led to the continuation of the
lawsuit or the seizure of any of Advantageous’ property.
Although Advantageous relies primarily on the district court’s findings, the New Mexico Court of Appeals’
recitation of the facts is more complete. Because the
facts relating to the fabrication of evidence are crucial
to the resolution of this lawsuit, I have reproduced
the New Mexico Court of Appeals’ statement of those
facts in its entirety.6 In understanding those facts, it is
6 [F]ederal courts, in appropriate circumstances, may take notice
of proceedings in other courts, both within and without the
federal judicial system, if those proceedings have a direct
relation to matters at issue.” St. Louis Baptist Temple, Inc. v.
Federal Deposit Ins. Corp., 605 F.2d 1169, 1172 (10th Cir. 1979).
Furthermore, because both the State Defendants and Advantageous had a full and fair opportunity to litigate the fabrication
of evidence issue in the state case, both parties would be
collaterally estopped from challenging the New Mexico state
courts’ findings in this case. See Sil-Flo, Inc. v. SFHC, Inc., 917

App.31a
important to know that Advantageous Community
Services, LLC was doing business as Imagine, LLC,
and the Court of Appeals referred to Advantageous as
“Imagine” throughout its opinion. See Advantageous
Community Services, LLC, 2014-NMCA-076, ¶ 1, 329
P.3d at 739.
Imagine contracts with individual caregivers
to provide home-based healthcare services
to Medicaid recipients through the Medicaid
Developmental Disabilities Waiver Program.
New Mexico Department of Health (DOH)
regulations require home-based healthcare
providers like Imagine to submit criminal
history screening applications to DOH for
each of its caregivers. Once the criminal
application is submitted, DOH then conducts
a state and nationwide criminal background
check. Upon completion of the background
check, DOH sends a “clearance letter” stating
whether a caregiver has any reported disqualifying convictions. In its suit the State
alleges that Imagine knowingly submitted
bills for services provided by six caregivers
whose criminal histories did not meet the
screening requirements and that, therefore,
F.2d 1507, 1520 (10th Cir. 1990) (“Under collateral estoppel, ‘once
a court has decided an issue of fact or law necessary to its
judgment, that decision may preclude relitigation of the issue in
a suit on a different cause of action involving a party to the first
case.’”) (quoting Allen v. McCurry, 449 U.S. 90, 94 (1980));
Shovelin v. Central New Mexico Elec. Co-op., Inc., 1993-NMSC015, ¶ 10, 114 N.M. 293, 297, 850 P.2d 996, 1000 (“The doctrine
of collateral estoppel fosters judicial economy by preventing the
relitigation of ultimate facts or issues actually and necessarily
decided in a prior suit.”) (internal quotation marks omitted).

App.32a
Imagine violated [] the Medicaid Fraud Act,
NMSA 1978, §§ 30-44-1 to-8 (1989, as
amended through 2004). According to the
State, the Medicaid payments Imagine
received from the State and paid to the six
caregivers constituted overpayments, which
the State had a right to recoup as damages,
in addition to civil penalties. The State
compared the date on the clearance letter
for each of the six caregivers to the date
each caregiver was hired to support its
claims that caregivers were providing services
that were billed to Medicaid before DOH
confirmed that they had a clear criminal
history. Thus, the clearance letter issued for
each caregiver is critical to the State’s theory
of liability. On the other hand, Imagine
contends that DOH regulations permit caregivers to work under conditional supervised
employment while DOH conducts the
screening and that the regulations only
require that criminal history screening applications be submitted for each caregiver
within the first twenty days of employment.
Therefore, according to Imagine, the dates
Imagine submitted the criminal history
screening applications and/or whether applications were submitted at all would have
been relevant to whether any violations
occurred, not the date on the clearance
letters marking completion of the screening
process.

App.33a
The Assistant Attorney General (the AAG)7
prosecuting the case asked an investigator for
the Attorney General’s Office (the investigator)8 working in the [M]edicaid fraud unit
to prepare packets of documents relating to
each of the six caregivers to be used at the
deposition of Dr. Arminder Kaur, the owner
and corporate representative of Imagine. She
specifically asked the investigator to include
a copy of the clearance letter from DOH for
each caregiver to be included in the packet.
However, the investigator was unable to
locate copies of the actual clearance letters
Imagine had previously produced for two of
the caregivers, so he called Walter Rodas at
DOH to see if DOH had copies. Mr. Rodas
told the investigator that DOH did not keep
hard copies of the letters on file, so the
investigator asked Mr. Rodas to “reprint”
copies of the 2006 clearance letters from its
electronic data base. Mr. Rodas told the
investigator that it would not be possible to
reprint accurate copies of the letters because
the computer system had updated several
fields in the clearance letter template. The
investigator nevertheless told Mr. Rodas to
go ahead and print the letters with the
updated data. Mr. Rodas faxed the letters to
the investigator with a cover sheet stating,
7 According to Judge Huling’s opinion, the responsible AAG was
State Defendant Amy Landau. Doc. 98-1 at 3, ¶ 10.
8 According to Judge Huling’s opinion, the investigator was State
Defendant Mark Workman. Doc. 98-1 at 3-4, ¶¶ 9-14, 16-20.

App.34a
Per your request, attached find copies
of the clearance letters for [the two
caregivers]. These letter[s] were issued
for Imagine back in 2006. In addition to
the discrepancies I mentioned to you
already over the phone, our letter
template pulls information current on
our system. That is why the letters are
issued and addressed to Melissa McCue,
but she may have not been the contact
person at Imagine back then. Also, the
letters are signed by Gil Mendoza, but
he was not the manager of this department in 2006; nor was Ms. Martinez
the governor at that time either.
Unfortunately, we do not have access to
the original letters any longer and this
is the best I can do to assist you from
our computer records.
The investigator put the false letter in the
packet for each caregiver and delivered the
packets to the AAG. However, he left the
fax cover sheet explaining that the letters
were not authentic copies on his desk, and
he did not tell the AAG that he had been
unable to locate copies of the actual clearance
letters that were sent to Imagine. One of
the created letters is attached to this Opinion as Appendix 1, and a copy of the actual
clearance letter sent to Imagine in 2006 for
the same employee is attached to this Opinion as Appendix 2. Though the dates of the
two letters are the same, and the “Control
No.” for the employee match, the letters are

App.35a
obviously otherwise very different. At Dr.
Kaur’s deposition[9] she testified that, as far
as she knew, Imagine was in compliance
with the criminal history screening requirements at the time of the alleged violations.
Her former business partner’s son, Karan
Sangha, and former employee, Diane Nunn,
were in charge of ensuring compliance with
the criminal history screening requirements,
and they had assured her that Imagine was
at all times in compliance. Dr. Kaur added
that Karan Sangha and Diane Nunn later
left to form their own home healthcare business, taking with them the documentary
evidence of Imagine’s compliance. After they
left, Melissa McCue, another employee at
Imagine, took over the caregiver criminal
history compliance duties. When presented
with Exhibit 15 (Appendix 1) and asked why
it was addressed to Melissa McCue in October of 2006, Dr. Kaur’s reaction was surprise. A clearance letter sent to Imagine in
2006 should have been addressed to Karan
Sangha, and Exhibit 15 also had Imagine’s
new office address rather than the address
it had in 2006.
Imagine filed a motion for sanctions against
the State for using a fabricated document at
the deposition, as well as a motion for

9 Dr. Kaur’s deposition took place on March 9, 2011, a little
more than 17 months after the State filed its lawsuit against
Advantageous in 2009. See Doc. 98-1 at 2, ¶ 3.

App.36a
summary judgment on the merits.[10] The
district court held an evidentiary hearing to
address the motion for sanctions at which
the foregoing facts were developed. The
AAG also answered questions posed by the
district court, denying that she knew the
letter was false when she utilized it in the
deposition and admitting she did not observe
the discrepancy of the incorrect governor on
the letterhead. The district court then filed
detailed findings of fact and conclusions of
law. In pertinent part, the district court
made findings of fact that Exhibit 15 is a
purported letter from DOH to Imagine, care
of Melissa McCue, but it is a false document,
and was created by the State for this litigation. Specifically, the text of the letter, the
addressee, and the signature line are inaccurate. Further, the district court found, while
the investigator was told that Exhibit 15 is
not a true and correct copy of the original
document, the investigator did not disclose
that information to the AAG, and the AAG
failed to observe the obvious discrepancy in
the document that Susana Martinez was
not the Governor in 2006, which would have
alerted her that it could not be an accurate
copy of a 2006 document. The district court
added that the investigator knew the docu10 Advantageous, a/k/a Imagine, filed its motion for sanctions
on March 29, 2011, and its motion for summary judgment on
June 1, 2011. See Attachment 2 (Docket sheet for State ex rel.
King v. Advantageous Community Services, LLC, Case No. D202-CV-2009-11396).

App.37a
ment was false and that it was going to be
used at Dr. Kaur’s deposition, but he did not
disclose his knowledge to the AAG, who then
attempted to impeach Dr. Kaur with the
document. Importantly, the district court also
found that, “[c]onsidering his position as an
investigator for the Attorney General’s Office,
[the investigator]’s testimony that he did
not believe the information was important
is not credible.”
All of the investigator’s actions were done in
the course and scope of his employment with
the Attorney General’s Office of the State of
New Mexico. Moreover, the district court
found, “[c]onsidering the immense power of
the Attorney General’s Office, the public
must be able to rely on the truth of documents produced in litigation by the Attorney
General’s office, its attorneys and investigators” and that “[a]n investigator allowing
an assistant attorney general to utilize a
document known to be false in discovery is an
egregious offense subject to sanctions.”
The district court accordingly concluded as
a matter of law that “[d]ismissal of the
Complaint is warranted as a sanc tion
considering the egregious nature of the actions
of the State’s investigator.” The district
court also concluded that Imagine’s motion
for summary judgment should be granted.
A formal order was entered dismissing the
case with prejudice, and the State appeals.
Because we affirm dismissal of the case as
a sanction, we do not discuss the State’s

App.38a
argument that the court erred in granting
summary judgment.

Advantageous Community Services, LLC, 2014-NMCA076, ¶¶ 2-11, 329 P.3d at 739-41.
These facts make plain that the State Defendants
did not fabricate any evidence to support the initiation
of the State’s lawsuit against Advantageous. The
underlying complaint was filed approximately 17
months before Mr. Workman asked DOH to “reprint”
the two clearance letters he received from DOH
shortly before Dr. Kaur’s deposition on March 9, 2011.
These facts further make clear that the fabricated
evidence did not serve to perpetuate the lawsuit, nor
do they show that the State Defendants used the
fabricated evidence to seize Advantageous’ property.
As the New Mexico Court of Appeals made clear,
the fabricated evidence led to the dismissal of the
case against Advantageous, not its continuation.
Further, the fabricated evidence did not show that
the State lacked probable cause to continue its case
against Advantageous. As the court explained, the
two fabricated clearance letters were important to
the State’s case because the State contended that a
particular caregiver-employee could not provide
Medicaid services under Advantageous’ contract with
the State until that caregiver was screened for criminal
convictions and cleared. See Advantageous Community
Services, LLC, 2014-NMCA-076, ¶ 3, 329 P.3d at 740.
Thus, the important aspects of the letters from the
State’s perspective was the date of the letter, and
that the particular caregiver was cleared. See id. On
these points, the State’s “reprinted” letter was consistent with the true letter. Compare id., Appendix 1
(“reprinted” letter) with id., Appendix 2 (true letter);

App.39a

see also id., 2014-NMCA-076, ¶ 33, 329 P.3d at 746
(Bustamante, J., concurring) (“The State maintained
that caregivers could not be paid until they had
cleared their criminal background screening. Imagine
asserted that caregivers could be hired and paid
pending completion of the screening process. Thus,
for the State’s purpose, the most salient information
on the falsely reproduced letters was the identity of
the caregiver and the date the approved screening
issued. There is no issue that these ‘critical fields’—
as the State terms them—were accurate.”). Thus, the
two fabricated letters did not create probable cause
where none existed.
Importantly, this case bears little resemblance to

Pierce, 359 F.3d at 1291-92, 1295-96 on which Advantageous relies for the proposition that “liability for
malicious prosecutions extends to those who continue
prosecutions when they obtain knowledge that there
is no probable cause to proceed against the defendant.”
Doc. 98 at 13 (internal quotation marks omitted). In
Pierce, the plaintiff spent 15 years in an Oklahoma
state prison for a rape he did not commit. 359 F.3d at
1281. The plaintiff finally was exonerated and released
as a result of a DNA analysis. Id. He later brought a
§ 1983 malicious prosecution case against, among
others, a forensic chemist for the Oklahoma City Police
Department who fabricated inculpatory evidence
against the plaintiff and disregarded exculpatory
evidence, which led prosecutors to indict, prosecute
and ultimately convict the plaintiff for the rape. Id.
The forensic chemist sought to have the malicious
prosecution case against her dismissed on the ground
that she was not involved in the initiation of the
prosecution against the plaintiff, but only became

App.40a
involved later, after the plaintiff was arrested and
charged. See id. at 1291. The Tenth Circuit rejected
this claim, holding that “when the fabrication of
evidence results in a constitutional deprivation, the
official’s responsibility for that deprivation does not
hinge on the exact stage of investigatory or prosecutorial process at which the fabrication occurred.” Id.
at 1296.
In other words, the fabrication of evidence in
Pierce resulted in the continued prosecution and conviction of an innocent man, who then spent 15 years
in jail for a crime he did not commit. In contrast, the
fabrication of evidence in this case resulted in the
dismissal of the lawsuit against Advantageous, and
there is no evidence that it resulted in any seizure of
Advantageous’ funds. The only evidence of any
“seizure” of Advantageous’ funds are three exhibits
attached to Advantageous’ response which show
denials of some payments to Advantageous for various
reasons between July 23, 2007 and September 30,
2011. See Docs. 98-2, 98-3, 98-4. Only the September
30, 2011, denials post-date the State’s initiation of its
lawsuit against Advantageous and the creation of the
fabricated evidence. See Doc. 98-4. Thus, the earlier
denials of payment cannot have resulted from either
the initiation of the lawsuit against Advantageous or
the fabricated evidence. Further, for each denial of
payment that post-dates the initiation of the lawsuit
and the fabrication of evidence, there is an explanatory
“EOB” code associated with the denial, which states
the reason why each claim was denied. See id. The
explanations range from requiring Advantageous to
“[v]erify the modifier on the claim matches the
modifier authorized,” to stating that “[p]rior author-

App.41a
ization has been used or the units/amount billed are
greater that the units/amount remaining on the
authorization.” Doc. 98-4 at 17. There is no evidence
that links these denials to the fabricated evidence.
Perhaps more important, however, is that Advantageous has not cited, and the Court has not found,
any case that holds that the wrongful denial of payment
for services rendered constitutes a seizure of property
under the Fourth Amendment. The Fourth Amendment, made applicable to the States by the Fourteenth
Amendment, Ker v. California, 374 U.S. 23, 30 (1963),
provides in pertinent part that the “right of the
people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures,
shall not be violated. . . . ” U.S. Const. amend. IV. As
the Supreme Court has explained, “[a] ‘seizure’ of
property occurs when there is some meaningful interference with an individual’s possessory interests in
that property.” United States v. Jacobsen, 466 U.S.
109, 113 (1984). Thus, the Supreme Court has held
that the forcible removal of a couple’s trailer home
from its lot was a “seizure” within the meaning of the
Fourth Amendment. See Soldal, 506 U.S. at 72. The
Tenth Circuit has held that the killing of a pet dog
was a seizure of property within the meaning of the
Fourth Amendment because “[k]illing a dog meaningfully and permanently interferes with the owner’s
possessory interest.” Mayfield v. Bethards, 826 F.3d
1252, 1256 (10th Cir. 2016). Similarly, an undersheriff’s assistance in removing a person’s property
from her farm was a seizure within the meaning of
the Fourth Amendment, Price-Cornelison v. Brooks,
524 F.3d 1103, 1115-19 (10th Cir. 2008), as was the
removal of 70 derelict vehicles from a person’s property,

App.42a

Lawrence v. Reed, 406 F.3d 1224, 1227, 1235-36 (10th
Cir. 2005). City ordinances that regulated the sale
and display of art on city-owned property did not,
however, violate the Fourth Amendment as there
was no seizure of either the artist or his artwork.
Travis v. Park City Mun. Corp., 565 F.3d 1252, 1257
(10th Cir. 2009).
Unlike the cases in which the Supreme Court and
the Tenth Circuit have found seizures of property,
there is no evidence in this case that the State Defendants seized funds that were already in Advantageous’
possession. Even if the State Defendants wrongfully
denied payment to Advantageous, they did not interfere with Advantageous’ possessory interest in these
payments because Advantageous was not yet in
possession of the funds. There is no evidence that the
State Defendants seized any of Advantageous’ bank
accounts or otherwise took control of money that
already was in Advantageous’ possession.11 And there
11 Advantageous attached a barely legible exhibit to its Rule
56(d) Supplement to Response, filed on November 11, 2019. See
Doc. 161-1 at 33 (Exhibit 5). Exhibit 5 is a remittance advice
summary prepared by the Human Services Department dated
July 25, 2011 (?—date is somewhat unclear) showing net claimed
transactions of $104,099.57, payouts of $65,000, receivable
recoupments of $65,000, and a remittance cycle total of
$39,099.57. Doc. 161-1 at 33. It shows that a check was issued
for $65,000, and an “EFT” (electronic funds transfer?—last two
letter are illegible) was issued for $39,099.57. Id. Advantageous
does not explain exactly what this document shows. It states
only that “HSD withheld money due to Advantageous after Landau
asked Apodaca and another HSD employee why Advantageous
was still being paid,” and cites Exhibit 5 as an example of this.
Doc. 161 at 3. But again, even if this is true, the Court has
found no Tenth Circuit or Supreme Court case that holds that
the wrongful withholding of money owed constitutes a “seizure”

App.43a
is no Tenth Circuit or Supreme Court case that holds
that the wrongful denial of a payment constitutes a
seizure of property under the Fourth Amendment.
Thus, even if the wrongful denial of payments constituted a seizure under the Fourth Amendment, it
was not a right that was clearly established on or
before September 30, 2011. See Fogarty, 523 F.3d at
1161 (“for the law to be clearly established, there
must be a Supreme Court or Tenth Circuit decision
on point. . . . ”).
3. The State Defendants’ Motion Is Not
Premature12
Advantageous argued at the end of April that it
was “entitled to additional time and opportunity to
take discovery” because the State Defendants had
systematically obstructed Advantageous’ discovery
efforts. See Doc. 98 at 18-20. But Advantageous made
no effort to outline what additional discovery it
needed in order to adequately respond to the State
under the Fourth Amendment. Advantageous also asserts that
“[l]ess that two weeks after Ms. Landau’s requests, Defendant
Cathy Stevenson informed Advantageous that its provider
agreement was being terminated.” Id. The Court already has
held, however, that Advantageous did not have a protected
property interest in its continued status as a Medicaid provider,
and that the State’s termination of its contract could not form
the basis of its malicious prosecution claim. Doc. 31 at 12.
12 Rule 56(b) provides that “[u]nless a different time is set by
local rule or the court orders otherwise, a party may file a
motion for summary judgment at any time until 30 days after
the close of all discovery.” Fed. R. Civ. P. 56(b). The Court set a
deadline of April 24, 2019 for the filing of pretrial motions. See
Doc. 68 at 1. The State Defendants filed their motion on April
12, 2019, twelve days before the deadline.

App.44a
Defendants’ motion. See id. On November 11, 2019,
Advantageous filed a supplement to the response it
had filed in April which included additional information which generally showed that HSD—the State
entity responsible for paying Advantageous for the
Medicaid services it rendered—may have coordinated
with the Attorney General’s MFU in deciding whether
to pay Advantageous and ultimately to end its contract with the State. However, as outlined above,
even if the State Defendants wrongfully withheld
payments to Advantageous, this does not amount to
a clearly established constitutional violation. And the
Court already has held that Advantageous did not
have a protected property interest in its continued
status as a Medicaid provider; therefore the State’s
termination of its provider contract cannot form the
basis of its malicious prosecution claim whether or
not the MFU was involved in terminating that contract. See Doc. 31 at 12. In short, the additional
materials do not create a disputed issue of material
fact that warrants a denial of summary judgment.
More importantly, Rule 56(d) provides that “[i]f
a nonmovant shows by affidavit or declaration that,
for specified reasons, it cannot present facts essential
to justify its opposition [to a motion for summary
judgment], the court may: (1) defer considering the
motion or deny it; (2) allow time to obtain affidavits
or declarations or to take discovery; or (3) issue any
other appropriate order.” Fed. R. Civ. P. 56(d)
(emphasis added). Advantageous did not submit any
affidavit or declaration in conjunction with its response
that specifically explained why it could not adequately
respond to the State Defendants’ motion without
further discovery, nor did it make any effort to

App.45a
comply with the Tenth Circuit’s requirements for
obtaining additional discovery under Rule 56(d). See
generally Doc. 98; see also Gutierrez v. Cobos, 841
F.3d 895, 908 (10th Cir. 2016) (outlining requirements
for obtaining additional discovery under Rule 56(d)).
The State Defendants’ motion for summary judgment
is not premature, and Advantageous is not entitled
to additional discovery under Rule 56(d).
III. Conclusion
For the foregoing reasons, the Court GRANTS
the State Defendants’ Motion for Summary Judgment
(Doc. 95).
IT IS SO ORDERED.
/s/
Laura Fashing
United States Magistrate Judge
Presiding by Consent

App.46a
OPINION OF THE COURT OF APPEALS
OF NEW MEXICO
(APRIL 28, 2014)
COURT OF APPEALS OF NEW MEXICO
________________________
STATE OF NEW MEXICO,
EX REL. GARY KING, ATTORNEY GENERAL,

Plaintiff-Appellant,
v.
ADVANTAGEOUS COMMUNITY SERVICES, LLC,
A NEW MEXICO LIMITED LIABILITY COMPANY,

Defendant-Appellee.
________________________
No. 31,782
Before: Linda M. VANZI,
Michael D. BUSTAMANTE, VIGIL, Judges.
VIGIL, Judge.
[1] The district court dismissed the State’s medicaid
fraud claims against Defendant Advantageous Community Services, LLC, doing business as Imagine,
LLC, (Imagine) after the State’s investigator procured
a false and fictitious document relating to a central
issue in the case. The investigator provided the document to the State’s lawyer without disclosing that
the document was false, and the lawyer then used it
in a deposition of Imagine’s owner and corporate

App.47a
representative. Concluding that the district court did
not abuse its discretion, we affirm.
I.

Background

[2] Imagine contracts with individual caregivers
to provide home-based healthcare services to Medicaid
recipients through the Medicaid Developmental
Disabilities Waiver Program. New Mexico Department
of Health (DOH) regulations require home-based
healthcare providers like Imagine to submit criminal
history screening applications to DOH for each of its
caregivers. Once the criminal application is submitted,
DOH then conducts a state and nationwide criminal
background check. Upon completion of the background
check, DOH sends a “clearance letter” stating whether
a caregiver has any reported disqualifying convictions.
In its suit the State alleges that Imagine knowingly
submitted bills for services provided by six caregivers
whose criminal histories did not meet the screening
requirements and that, therefore, Imagine violated
the Medicaid Fraud Act, NMSA 1978, §§ 30-44-1 to
-8 (1989, as amended through 2004). According to the
State, the Medicaid payments Imagine received from
the State and paid to the six caregivers constituted
overpayments, which the State had a right to recoup
as damages, in addition to civil penalties.
[3] The State compared the date on the clearance
letter for each of the six caregivers to the date each
caregiver was hired to support its claims that caregivers
were providing services that were billed to Medicaid
before DOH confirmed that they had a clear criminal
history. Thus, the clearance letter issued for each
caregiver is critical to the State’s theory of liability.
On the other hand, Imagine contends that DOH

App.48a
regulations permit caregivers to work under conditional
supervised employment while DOH conducts the
screening and that the regulations only require that
criminal history screening applications be submitted
for each caregiver within the first twenty days of
employment. Therefore, according to Imagine, the
dates Imagine submitted the criminal history screening
applications and/or whether applications were submitted at all would have been relevant to whether any
violations occurred, not the date on the clearance
letters marking completion of the screening process.
[4] The Assistant Attorney General (the AAG)
prosecuting the case asked an investigator for the
Attorney General’s Office (the investigator) working
in the medicaid fraud unit to prepare packets of
documents relating to each of the six caregivers to be
used at the deposition of Dr. Arminder Kaur, the owner
and corporate representative of Imagine. She specifically asked the investigator to include a copy of the
clearance letter from DOH for each caregiver to be
included in the packet. However, the investigator was
unable to locate copies of the actual clearance letters
Imagine had previously produced for two of the
caregivers, so he called Walter Rodas at DOH to see
if DOH had copies. Mr. Rodas told the investigator
that DOH did not keep hard copies of the letters on
file, so the investigator asked Mr. Rodas to “reprint”
copies of the 2006 clearance letters from its electronic
data base.
[5] Mr. Rodas told the investigator that it would
not be possible to reprint accurate copies of the
letters because the computer system had updated
several fields in the clearance letter template. The
investigator nevertheless told Mr. Rodas to go ahead

App.49a
and print the letters with the updated data. Mr. Rodas
faxed the letters to the investigator with a cover
sheet stating,
Per your request, attached find copies of the
clearance letters for [the two caregivers]. These letter[s]
were issued for Imagine back in 2006. In addition to
the discrepancies I mentioned to you already over the
phone, our letter template pulls information current
on our system. That is why the letters are issued and
addressed to Melissa McCue, but she may have not
been the contact person at Imagine back then. Also,
the letters are signed by Gil Mendoza, but he was not
the manager of this department in 2006; nor was Ms.
Martinez the governor at that time either. Unfortunately, we do not have access to the original letters
any longer and this is the best I can do to assist you
from our computer records.
The investigator put the false letter in the packet
for each caregiver and delivered the packets to the
AAG. However, he left the fax cover sheet explaining
that the letters were not authentic copies on his
desk, and he did not tell the AAG that he had been
unable to locate copies of the actual clearance letters
that were sent to Imagine.
[6] One of the created letters is attached to this
Opinion as Appendix 1, and a copy of the actual
clearance letter sent to Imagine in 2006 for the same
employee is attached to this Opinion as Appendix 2.
Though the dates of the two letters are the same,
and the “Control No.” for the employee match, the
letters are obviously otherwise very different.
[7] At Dr. Kaur’s deposition she testified that, as
far as she knew, Imagine was in compliance with the

App.50a
criminal history screening requirements at the time
of the alleged violations. Her former business partner’s
son, Karan Sangha, and former employee, Diane
Nunn, were in charge of ensuring compliance with
the criminal history screening requirements, and
they had assured her that Imagine was at all times
in compliance. Dr. Kaur added that Karan Sangha
and Diane Nunn later left to form their own home
healthcare business, taking with them the documentary
evidence of Imagine’s compliance. After they left,
Melissa McCue, another employee at Imagine, took
over the caregiver criminal history compliance duties.
When presented with Exhibit 15 (Appendix 1) and
asked why it was addressed to Melissa McCue in
October of 2006, Dr. Kaur’s reaction was surprise. A
clearance letter sent to Imagine in 2006 should have
been addressed to Karan Sangha, and Exhibit 15
also had Imagine’s new office address rather than
the address it had in 2006.
[8] Imagine filed a motion for sanctions against
the State for using a fabricated document at the
deposition, as well as a motion for summary judgment
on the merits. The district court held an evidentiary
hearing to address the motion for sanctions at which
the foregoing facts were developed. The AAG also
answered questions posed by the district court, denying
that she knew the letter was false when she utilized
it in the deposition and admitting she did not observe
the discrepancy of the incorrect governor on the letterhead.
[9] The district court then filed detailed findings
of fact and conclusions of law. In pertinent part, the
district court made findings of fact that Exhibit 15 is
a purported letter from DOH to Imagine, care of

App.51a
Melissa McCue, but it is a false document, and was
created by the State for this litigation. Specifically,
the text of the letter, the addressee, and the signature
line are inaccurate. Further, the district court found,
while the investigator was told that Exhibit 15 is not
a true and correct copy of the original document, the
investigator did not disclose that information to the
AAG, and the AAG failed to observe the obvious discrepancy in the document that Susana Martinez was
not the Governor in 2006, which would have alerted
her that it could not be an accurate copy of a 2006
document. The district court added that the investigator knew the document was false and that it was
going to be used at Dr. Kaur’s deposition, but he did
not disclose his knowledge to the AAG, who then
attempted to impeach Dr. Kaur with the document.
Importantly, the district court also found that,
“[c]onsidering his position as an investigator for the
Attorney General’s Office, [the investigator]’s testimony
that he did not believe the information was important
is not credible.”
[10] All of the investigator’s actions were done in
the course and scope of his employment with the
Attorney General’s Office of the State of New Mexico.
Moreover, the district court found, “[c]onsidering the
immense power of the Attorney General’s Office, the
public must be able to rely on the truth of documents
produced in litigation by the Attorney General’s
office, its attorneys and investigators” and that “[a]n
investigator allowing an assistant attorney general
to utilize a document known to be false in discovery
is an egregious offense subject to sanctions.”
[11] The district court accordingly concluded as
a matter of law that “[d]ismissal of the Complaint is

App.52a
warranted as a sanction considering the egregious
nature of the actions of the State’s investigator.” The
district court also concluded that Imagine’s motion
for summary judgment should be granted. A formal
order was entered dismissing the case with prejudice,
and the State appeals. Because we affirm dismissal
of the case as a sanction, we do not discuss the State’s
argument that the court erred in granting summary
judgment.
II. Discussion
A. Authority of the District Court to Dismiss as
a Sanction
[12] Since at least 1939, our courts have asserted
an inherent power, independent of any statute or
rule, to regulate the proceedings before them, which
includes imposing sanctions when appropriate. See
City of Roswell v. Holmes, 1939-NMSC-062, ¶ 6, 44
N.M. 1, 96 P.2d 701 (“[I]t is an inherent right of the
courts and therefore one existing independently of
any statute to dismiss a suit for failure to prosecute
it with diligence.”). This authority stems from “‘the
control necessarily vested in courts to manage their
own affairs so as to achieve the orderly and expeditious
disposition of cases.’” Beverly v. Conquistadores, Inc.,
1975-NMCA-070, ¶ 6, 88 N.M. 119, 537 P.2d 1015
(quoting Link v. Wabash R.R. Co., 370 U.S. 626, 63031, 82 S. Ct. 1386, 8 L.Ed.2d 734 (1962)).
In State ex rel. New Mexico Highway & Trans portation Department v. Baca, 1995-NMSC-033, 120
N.M. 1, 896 P.2d 1148, our Supreme Court declared
that “a court’s inherent power is at the core of judicial
authority,” and reaffirmed that courts in New Mexico

App.53a
possess “inherent power to impose a variety of sanctions on both litigants and attorneys in order to
regulate their docket, promote judicial efficiency, and
deter frivolous filings.” Id. ¶¶ 11, 20 (internal quotation marks and citations omitted); see Lujan v. City
of Albuquerque, 2003-NMCA-104, ¶ 10, 134 N.M.
207, 75 P.3d 423 (stating the general proposition that
courts have “authority to dismiss claims with prejudice for a party’s failure to . . . comply with procedural
rules or court orders”). Therefore, our Supreme Court
concluded in Baca, a New Mexico court has inherent
authority, independent of any statute or rule, to
award attorney fees “in order to vindicate its judicial
authority and compensate the prevailing party for
expenses incurred as a result of frivolous or vexatious
litigation.” 1995-NMSC-33, ¶ 12, 120 N.M. 1, 896 P.2d
1148.
[14] Historically, sanctions have been imposed
most often in the context of misconduct associated
with discovery. Dismissal of a complaint with prejudice
was held to be warranted when a party willfully
refused to obey a direct court order to supply the name
of a witness. Beverly, 1975-NMCA-070, ¶¶ 7, 16, 88
N.M. 119, 537 P.2d 1015. In addition, a default judgment against a party was upheld when a party failed
to provide discovery “due to the willfulness, bad faith
or fault of the disobedient party.” United Nuclear
Corp. v. Gen. Atomic Co., 1980-NMSC-094, ¶ 202, 96
N.M. 155, 629 P.2d 231. In this context, our Supreme
Court has declared that “willfulness” means “any
conscious or intentional failure to comply therewith,
as distinguished from accidental or involuntary noncompliance, and no wrongful intent need be shown to
make such a failure willful.” Id. ¶ 203 (alteration,

App.54a
internal quotation marks, and citations omitted); see
Reed v. Furr’s Supermarkets, Inc., 2000-NMCA-091,
¶ 9, 129 N.M. 639, 11 P.3d 603 (discussing the requirements to justify dismissal as an appropriate sanction);
Gonzales v. Surgidev Corp., 1995-NMSC-047, ¶ 31, 120
N.M. 151, 899 P.2d 594 (stating that failure to
comply with a court order only provides grounds for
dismissal if the failure was due to willfulness, bad
faith, or fault of the disobedient party); Medina v.
Found. Reserve Ins. Co., 1994-NMSC-016, ¶ 6, 117
N.M. 163, 870 P.2d 125 (stating that a finding of
“willfulness” may be based on a “gross indifference to
discovery obligations”).
[15] Deception or reliance in fact by the other
party is not a prerequisite to dismissal, and “the ultimate importance of the false or deceptive information”
is not a requirement for dismissal. Medina, 1994NMSC-016, ¶ 9, 117 N.M. 163, 870 P.2d 125. In
Reed, we applied Medina and concluded that dismissal
as a sanction for discovery abuse does not require:
“(1) that the party seeking dismissal be deceived in fact
or that the party relied on the misrepresentations;
(2) that the information misrepresented be critical to
preparation for trial; and (3) that dismissal be preconditioned upon the ultimate importance of the false
or deceptive information.” Reed, 2000-NMCA-091,
¶ 28, 129 N.M. 639, 11 P.3d 603 (internal quotation
marks and citation omitted).
[16] Importantly, our Supreme Court has held
that attorney fees may be imposed against the State
when it is a party because other considerations, such
as the depletion of public revenues and the punishment
of innocent taxpayers, “must be subordinate to a
court’s authority to control the parties and the litigation

App.55a
before it.” Baca, 1995-NMSC-033, ¶ 25, 120 N.M. 1,
896 P.2d 1148. Thus, in Harrison v. Board of Regents,
we stated, “a court’s inherent authority extends to all
conduct before the court and to all parties appearing
before the court, regardless of the party’s status as a
private litigant or as a governmental/public entity.”
2013-NMCA-105, ¶ 16, 311 P.3d 1236, cert. granted,
2013-NMCERT-010, 313 P.3d 251. We therefore concluded that the district court in that case had inherent
authority to impose a non-compensatory, punitive
sanction against the board of regents, notwithstanding
that it is a public entity. Id. ¶ 27.
[17] From what we have said, it is apparent that
the district court had inherent authority to dismiss
the State’s complaint with prejudice. We now turn to
whether the district court properly did so.
B. Standard of Review
[18] We review a district court’s dismissal of a
complaint for engaging in abusive litigation practices
for an abuse of discretion. See id. ¶ 14 (“We generally
review a district court’s imposition of sanctions under
its inherent power for an abuse of discretion.”); Reed,
2000-NMCA-091, ¶ 10, 129 N.M. 639, 11 P.3d 603
(stating that we review dismissal of a complaint as a
sanction for an abuse of discretion); see also Baca,
1995-NMSC-033, ¶¶ 11-12, 120 N.M. 1, 896 P.2d 1148
(applying an abuse of discretion standard to review a
district court’s imposition of sanctions under its
inherent power); State v. Candelaria, 2008-NMCA120, ¶ 12, 144 N.M. 797, 192 P.3d 792 (reviewing the
sanction of dismissal of a criminal case by a trial
court under its inherent power for an abuse of discretion).

App.56a
[19] Under the abuse of discretion standard of
review, we do not determine whether we, as a reviewing
court, would have arrived at the same result as the
district court. See United Nuclear Corp., 1980-NMSC094, ¶ 385, 96 N.M. 155, 629 P.2d 231; Emerick v.
Fenick Indus., Inc., 539 F.2d 1379, 1381 (5th Cir. 1976);
see also Candelaria, 2008-NMCA-120, ¶ 12, 144 N.M.
797, 192 P.3d 792 (stating that appellate review of
trial court’s discretion does not turn on whether the
appellate court would have arrived at the same
result). Rather, we only determine “whether the trial
court’s decision is without logic or reason, or clearly
unable to be defended.” Enriquez v. Cochran, 1998NMCA-157, ¶ 20, 126 N.M. 196, 967 P.2d 1136. Moreover, “[b]ecause the trial court’s decision must be
based on its conclusions about a party’s conduct and
intent, implicit in the standard of review is the question of whether the court’s findings and decision are
supported by substantial evidence.” Id.; see Reed,
2000-NMCA-091, ¶¶ 24-25, 129 N.M. 639, 11 P.3d 603
(stating that in a hearing on a motion for discovery
abuse sanctions, the district court sits as a fact
finder). Thus, we review the evidence, and its inferences, in the light most favorable to the district court’s
decision. See Candelaria, 2008-NMCA-120, ¶ 12, 144
N.M. 797, 192 P.3d 792.
C. Analysis
[20] On appeal, the State first contends that the
created letters are not “false.” The State attempts to
minimize the obvious differences between the created
letters and actual letters by asserting that the letterhead, addressee, signatory, and body of the letters
are not “critical” fields. According to the State, the
“critical” fields on the created letter relate to the

App.57a
caregiver: the name of the provider, the provider
number, and the date of clearance. The State asserts
that these fields remained the same in the 2006 copy
and the 2011 “printout,” that the information in the
created letter was independently verifiable by Imagine
through the online registry system, and that none of
the updated fields in the letters “contained evidence
relevant to the State’s claims.”
[21] The State also argues that dismissal was an
inappropriate sanction because its actions were not
“willful.” The State blames DOH’s failure to keep copies
of the 2006 letters and its computer limitations for its
“mistake,” asserting that the criminal history screening
program’s “inherent computer limitations and inability
to ‘reprint’ exact copies of the original two 2006
[criminal history] clearance letters sent to Imagine”
caused the “inadvertent error.” The State asserts
that “there was no testimony to support Imagine’s
contentions that [the investigator] intentionally
fabricated and/or falsified [the letters]” blaming his
lack of law office experience and training in evidence
for causing the “inadvertent error.”
[22] We reject these arguments as contrary to
the findings of fact made by the district court. The
created letters were falsely represented as accurate
copies of actual clearance letters sent to Imagine in
2006. A cursory visual inspection of the documents
quickly discloses that they are not even close to being
similar. Arguments about “critical” fields do not, and
cannot, alter the undisputed fact that the State created,
presented, and used a false document at the deposition of Dr. Kaur, the owner and corporate represent-

App.58a
ative of Imagine, the defendant it was suing.1 The
State fails to appreciate that DOH’s computer system
limitations are not the issue. Rather, the issue is the
consequence of the investigator instructing DOH to
create the false documents, and knowing they were
false, giving them to the AAG to use in the deposition
without telling the AAG why or how the false document was created. The immediate consequence to Dr.
Kaur was that after she testified in her deposition
that former employees Karan Sangha and Diane Nunn
were in charge of criminal history screening requirements for Imagine in 2006, she was confronted with
one of the created documents and asked why it was
addressed to someone else. The State seemingly
overlooks the district court’s explicit finding of fact
that the investigator’s testimony that he thought the
information about the falsity of the letters was “not
important” was “not credible,” considering his position as an investigator for the Attorney General’s
Office. This finding is more than ample support to
conclude that his actions were “willful.”
[23] Finally, the State argues that Imagine was
not entitled to a dismissal because the false exhibit
“did not prejudice Imagine and/or adversely impact
its ability to prepare for, and present its case at
trial.” This argument of a lack of prejudice overlooks
our precedent. See Medina, 1994-NMSC-016, ¶ 9, 117
N.M. 163, 870 P.2d 125 (stating that deception or
reliance in fact by the other party is not a prerequisite to dismissal, and “the ultimate importance
of the false or deceptive information” is not a require1 The State does not contest the district court’s conclusion of law
that the investigator’s actions were performed in the course and
scope of his employment with the Attorney General’s office.

App.59a
ment for dismissal); Reed, 2000-NMCA-091, ¶ 19-20,
129 N.M. 639, 11 P.3d 603 (stating that dismissal as
a sanction does not require that the other party be
deceived in fact, that the information be critical to
preparation for trial, or that dismissal be conditioned
on the ultimate importance of the false or deceptive
information).
[24] Moreover, if we were to accept the State’s
argument of no prejudice, a district court would be
powerless to dismiss a case for misconduct during
the pretrial discovery phase of a case. And that is
clearly contrary to our well-settled precedent, which
we have already pointed out, allows for sanctions,
including dismissal with prejudice, for misconduct in
discovery. Moreover, our Supreme Court has pointed
out, “It would be ridiculous to allow a party who
completely thwarts discovery to escape penalty simply
because it could not be proven that other litigants
were in fact deceived by such misconduct or actually
relied upon it.” Medina, 1994-NMSC-016, ¶ 9, 117 N.M.
163, 870 P.2d 125.
[25] Finally, the State’s argument overlooks what
took place here. Preservation of the integrity of the
judicial process is crucial to ensuring that our courts
can properly perform their constitutional duty. When
conduct perverts the very process used by courts for
ascertaining the truth, the core reason for their very
existence evaporates. The constitutional integrity of
our courts demands that no party may fabricate
“evidence,” represent it to be something which it is
not, and then use it in connection with a judicial proceeding. When this occurs, the entire judicial system
is “prejudiced,” and dismissal with prejudice is
warranted. See United Nuclear Corp., 1980-NMSC-

App.60a
094, ¶ 397, 96 N.M. 155, 629 P.2d 231 (stating that
the interest protected when a party has displayed a
willful, bad faith approach to discovery is “to preserve
the integrity of the judicial process and the due
process rights of the other litigants”); Harrison, 2013NMCA-105, ¶ 24, 311 P.3d 1236 (“The policy behind
a district court’s inherent authority is the need to
prevent abusive litigation practice and preserve the
integrity of the judicial process.”); Reed, 2000-NMCA091, ¶ 9, 129 N.M. 639, 11 P.3d 603 (“ ‘When a party
has displayed a willful, bad faith approach to discovery,
it is not only proper, but imperative, that severe
sanctions be imposed to preserve the integrity of the
judicial process and the due process rights of the
other litigants.’” (quoting United Nuclear Corp., 1980NMSC-094, ¶ 397, 96 N.M. 155, 629 P.2d 231));
Sandoval v. Martinez, 1989-NMCA-042, ¶ 21, 109 N.M.
5, 780 P.2d 1152 (“[A] false response to a discovery
request, unlike other violations of the discovery rules,
is a clandestine violation” and that “[i]t is not enough
to say that such a party will gain no advantage if the
lie is uncovered.”).2 Such misconduct is so egregious
2 Other courts confronted with similar circumstances have
reached the same result. In Vargas v. Peltz , 901 F.Supp. 1572,
1574-75, 1581 (S.D.Fl. 1995), the court utilized its “firmly
established” inherent power to dismiss the plaintiff’s sexual
harassment claim against the defendant when she produced
panties to corroborate her substantive claim, and it was learned
they were not even manufactured at the time of the alleged
harassment. In doing so, the court referred to and relied upon
Chambers v. NASCO, Inc. , 501 U.S. 32, 46-48, 111 S. Ct. 2123,
115 L.Ed.2d 27 (1991) (stating that the inherent power of
federal courts to impose sanctions extends to a full range of
litigation abuses). See Pope v. Fed. Express Corp., 138 F.R.D.
675, 677, 683 (W.D.Mo. 1990), aff’d in part, 974 F.2d 982 (8th
Cir. 1992) (stating that the plaintiff’s action for sexual harassment

App.61a
that even a single instance warrants dismissal.
Beverly, 1975-NMCA-070, ¶ 15, 88 N.M. 119, 537 P.2d
1015 (“The fact that persistent misconduct provides
the basis for dismissal does not mean that one
instance of misconduct may not be sufficiently extreme to warrant dismissal.”).
[26] We acknowledge that dismissal with prejudice
is a severe sanction. However, the district court was
presented with severe misconduct, prejudicial to the
administration of justice. The circumstances are ironic
in that the State was prosecuting a claim of fraud
using created, false documents to do so. Under the
circumstances, we cannot conclude that the district
court abused its discretion in imposing the sanction
of dismissal with prejudice.

was dismissed where the plaintiff manufactured an alleged note
containing improper remarks from her supervisor); Aoude v.
Mobil Oil Corp., 892 F.2d 1115, 1118 (1st Cir. 1989) (stating
that the cause of action was dismissed for “fraud on the court”
where the plaintiff attached a bogus agreement to the complaint);
TeleVideo Sys., Inc. v. Heidenthal , 826 F.2d 915, 917-18 (9th
Cir. 1987) (per curiam) (stating that a default was entered
where the defendant engaged in an elaborate scheme involving
perjury designed to willfully deceive the court); Sun World, Inc.
v. Lizarazu Olivarria , 144 F.R.D. 384, 389-90 (E.D.Cal. 1992)
(stating that default judgment was appropriate where the
plaintiff submitted a false document and committed perjury in
furtherance of fraud); Eppes v. Snowden, 656 F.Supp. 1267,
1279 (E.D.Ky. 1986) (stating that the defendant’s answer and
counterclaim were stricken where the defendant committed
“fraud on the court” by producing backdated letters).

App.62a
CONCLUSION
[27] The order of the district court dismissing
the State’s complaint with prejudice is affirmed.
[28] IT IS SO ORDERED.
I CONCUR: LINDA M. VANZI, Judge. MICHAEL
D. BUSTAMANTE (specially concurring).

App.63a
SPECIALLY CONCURRING OPINION
BY JUSTICE BUSTAMANTE
[29] I concur in the Majority Opinion and most of
its rationale. I agree, for example, that the State should
bear the consequences of the remarkably obtuse actions of its investigator in not informing the attorney
in the case that the letters he included in the package
were not exact duplicates of the letters issued in
2006. The State’s arguments trying to minimize the
investigator’s fault for what he did fly in the face of
the record and the district court’s finding of fact.
[30] I write separately only because the Majority
Opinion does not adequately address the State’s
argument that dismissal is too harsh a sanction
absent a showing of prejudice to Imagine. The Majority
Opinion provides a partial response in ¶ 23, citing
Medina and Reed for the proposition that actual
deception and reliance need not be demonstrated in
order to affirm dismissal as a sanction. I agree with
the proposition, but the question of prejudice here
makes the outcome a close thing and in my view
merits more detailed scrutiny. The notions of actual
deception and reliance are relevant to the question of
prejudice, but do not necessarily displace the concerns
inherent in the prejudice analysis. Reed, after all,
noted that “[n]onetheless, prejudice may be a factor
for the district court to consider when evaluating the
propriety of dismissal for discovery abuse.” Reed,
2000-NMCA-091, ¶ 28, 129 N.M. 639, 11 P.3d 603.
Reed also noted that “the non-deceiving party must
show that the misrepresentations were significant to
the discovery process.” Id. ¶ 29. I also believe that
consideration of prejudice is the better practice in

App.64a
cases such as this because it prompts a broader review
of the circumstances surrounding the events and the
district court’s decision. This broader review would
be of aid in assessing whether the offending party’s
acts suffice to meet the level of extraordinariness we
look for when the ultimate sanction of dismissal has
been imposed. It would seem particularly appropriate
in cases such as this where a single incident led to the
sanction.
[31] The State relies heavily on criminal cases
discussing appropriate considerations for sanctions
when the prosecutor has lost, destroyed, or withheld
evidence. See State v. Harper, 2011-NMSC-044, ¶ 19,
150 N.M. 745, 266 P.3d 25; State v. Bartlett, 1990NMCA-024, ¶ 4, 109 N.M. 679, 789 P.2d 627. These
cases are not helpful here if only because of the very
different considerations inherent in the criminal law.
[32] The State also relies on a civil prelitigation
spoliation case which makes clear that prejudice to the
opposing party should be considered when evaluating
whether dismissal as a sanction is warranted. See
Rest. Mgmt. Co. v. Kidde-Fenwal, Inc., 1999-NMCA101, ¶ 13, 127 N.M. 708, 986 P.2d 504. Though this case
involved prelitigation destruction of evidence, its
analytical framework was grounded in the inherent
authority of the courts to regulate their dockets,
promote judicial efficiency, and deter frivolous claims.
Id. ¶¶ 11, 12. Thus, the rationale underlying the existence and exercise of inherent powers—the necessity
to be able to command the obedience of litigants and
their attorneys in order to protect the integrity of the
litigation process—has been applied to both prelitigation and litigation-based conduct. As such, con-

App.65a
sideration of prejudice to the non-offending party is
also appropriate here.
[33] As suggested by Kidde -Fenwal , the State
organizes its prejudice argument around the relevance
of the evidence to the cause of action in the case and
the effect the “created” documents might have on
Imagine’s ability to prepare and present its case. Id.
¶ 15. As noted in ¶¶ 2 and 3 of the Majority Opinion,
the State and Imagine disagreed about when a caregiver could be hired and paid. The State maintained
that caregivers could not be paid until they had cleared
their criminal background screening. Imagine asserted
that caregivers could be hired and paid pending
completion of the screening process. Thus, for the
State’s purpose, the most salient information on the
falsely reproduced letters was the identity of the
caregiver and the date the approved screening issued.
There is no issue that these “critical fields”—as the
State terms them—were accurate.
[34] Based on the fact that the “critical fields”
information was accurate, the State argues with
some force that there could be no effect on Imagine’s
defense in any event. The State also asserts that
once the error was discovered it agreed that the false
letters would not be used for any purpose; thus there
could be no prejudice shown. Viewed in isolation
these arguments could be persuasive.
[35] But prejudice is not a controlling factor.
Courts should also consider the degree of fault of the
offending party. Id. ¶ 14. The district court clearly
found great fault in the actions of the investigator.
Courts should balance the degree of fault against the
magnitude of prejudice in designing a sanction. Id.
¶ 17. If the reasonably potential effect of the offending

App.66a
party’s action on the administration of justice is severe
enough, the court can opt for the severest sanction to
deter such conduct by others in the future. Id.
[36] I construe the district court’s decision as a
judgment by it that the creation and use made of the
false, recreated letters was simply not to be tolerated.
Given the “immense power” of the Attorney General
and its position as the attorney for the State of New
Mexico, I cannot disagree with the district court’s
conclusion. I conclude that this is one of those cases
in which the degree of fault can fairly trump a
showing of relatively minimal prejudice.

App.67a
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const., amend. IV
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the state and district wherein the
crime shall have been committed, which district
shall have been previously ascertained by law,
and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses
against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
U.S. Const. amend. XIV § 1
All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the privileges
or immunities of citizens of the United States;
nor shall any State deprive any person of life,
liberty, or property, without due process of law;
nor deny to any person within its jurisdiction
the equal protection of the laws.

App.68a
42 U.S.C. § 1983—Civil Action for Deprivation of Rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other
proper proceeding for redress, except that in any
action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory
relief was unavailable. For the purposes of this
section, any Act of Congress applicable exclusively
to the District of Columbia shall be considered to
be a statute of the District of Columbia.

